No.

IN THE

Jsnipreme CCnurt nf tip.' 3Llniteb
Arturo Beltran,

Petitioner,

v.
Craig Koenig, Warden,

Respondent,

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

I, Mark R. Drozdowski, a Deputy Federal Public Defender in the Office

of the Federal Public Defender, which was appointed as counsel for Petitioner

under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and who is a member
of the Bar of this Court, hereby certifies that, pursuant to Supreme Court

Rule 29.3, on January 15, 2021, a copy of the enclosed Motion for Leave to

Proceed in Forma Pauperis, Petition for a Writ of Certiorari, Appendix to

1

Petition for Writ of Certiorari, and Certificate Pursuant to Rule 33 was

mailed postage prepaid and electronically mailed to:
Gary A. Lieberman
Deputy Attorney General
Office of the California Attorney General
300 South Spring Street
Suite 1702
Los Angeles, CA 90013
DocketingLAAWT@doj .ca.gov
Gary. Lieberman@doj. ca. gov

Counsel for Respondent

All parties required to be served have been served. I declare under
penalty of perjury under the laws of the United States of America that the

foregoing is true and correct.

Executed on January 15, 2021, at Los Angeles, California.

MARK R. DROZDOWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

